NATIONAL CREDIT UNION ADMINISTRATION

      OFFICE OF INSPECTOR GENERAL




        MERIT PROMOTION AUDIT



          REPORT NUMBER 991




              February 9, 1999




         _________________________

            FRANK THOMAS
          INSPECTOR GENERAL
                          TABLE OF CONTENTS

                 TITLE                        PAGE

EXECUTIVE SUMMARY                                1

AUDIT PROCEDURES                                 4

     Purpose and Objectives                      4

     Scope and Methodology                       5

     Audit Team                                  5

BACKGROUND                                       6

AUDIT RESULTS                                   10

     Pre-Announcement                           10

     Recruitment                                18

     Evaluation of Applicants                   22

     Selection                                  26

APPENDICIES

     A - Federal Government Merit               31
     System Principles and Prohibited
     Practices

     B - Federal Government Regulatory          34
     Employment Practices and
     Promotion Requirements

     C - Federal Government Affirmative         35
     Action Program Regulations

     D - NCUA SSP Employee Merit                37
     Promotion Policies and Procedures

     E - NCUA CU Employee Merit                 39
     Promotion Policies and Procedures
                            EXECUTIVE SUMMARY


The NCUA Office of Inspector General conducted an audit of the NCUA’s merit
promotion program. The purpose of this audit was to: first, determine if NCUA’s merit
promotion program complied with merit system principles; second, review NCUA merit
promotion policies and procedures for reasonableness and assess compliance with such
policies and procedures; and third, to determine if NCUA had a valid affirmative action
plan for merit promotions and assess compliance with this plan.

Our audit included merit promotion actions for the years 1995 through 1997 for grades
CU 13 and above. We reviewed 87 of the 183 merit promotion case files for this time
period, interviewed appropriate NCUA staff, and reviewed related investigations among
other audit procedures.

We believe that the NCUA merit promotion program was not in complete compliance
with merit system principles, NCUA merit promotion policies and procedures are
substantially reasonable but could use improvement, and the agency’s affirmative action
program for merit promotions could be strengthened. NCUA has already begun to
implement actions which are moving towards correcting the noted problems.

                              Federal regulations require a job analysis and crediting plans
 Compliance with Merit        for merit promotion actions. A job analysis is intended to
 System Principles            provide a link between the duties of a job and the selection
criteria for applicants. A crediting plan is a method of determining how to rate application
information in an objective and measurable way against the position’s evaluation criteria.
None of the merit promotion case files we reviewed contained a job analysis or crediting
plan. This placed NCUA in non-compliance with Federal regulations and cast doubt upon
the objectivity and fairness of the rating process. The Office of Human Resources (OHR)
began implementing job analyses and crediting plans for all positions in January 1998. In
addition, training had been lacking for staff responsible for preparing job analysis and
crediting plans. Some of this training has subsequently been instituted by OHR.

In order to provide all applicants a fair and objective opportunity to be considered for
promotion, a rating of applicants is performed. Then these ratings are grouped or ranked
to determine which applicants are “best qualified”. Nearly three out of four SSP and one
out of eight CU reviewed case files lacked documentation on a rating panel convening or
evidence of the rating scores. Our interviews revealed that raters had received no training
and only minimal guidance on their duties and responsibilities. OHR has advised us that
training will be provided and internal controls for file documentation will be tightened.

Merit promotion case files are required by Federal regulation to have documentation that
assures that merit system principles have been followed. Seven case files selected for
review could not be located, 40 percent of SSP and 20 percent of CU case files reviewed


                                           1
had either missing applications, applications which were not received timely or receipt of
applications was not noted for applicants rated as qualified. Approximately 15 percent of
case files reviewed lacked applicant performance appraisals or had unsigned performance
appraisals in the files. A case file document review checklist is not required and when one
was present in a case file, it was frequently incomplete. In addition, when an exception to
policy was taken, substantially every case had no documentation or signed OHR approval
in the case file. OHR has plans to implement internal controls to correct these problems.

In four cases we noted selections where a lesser ranked candidate was selected over higher
ranked candidates. The supporting documentation for such exceptions was either missing
or inadequate. In addition, the selection of lesser ranked candidates negates the purpose
of candidate rating and ranking and gives the appearance of unfairness.

                           NCUA promotion actions generate a relatively low number of
 NCUA Promotion            applicants. Twenty two percent of our sampled cases did not
 Polices and Procedures generate an acceptable number of applicants to ensure
                           attracting applicants from all segments of society and more than
half of the announcements generated fewer than five applicants. This limits management’s
choice and perhaps quality of choice in the agency’s upper level tiers of positions. These
problems could have been exacerbated due to short announcement time periods, suspect
rating and ranking process, over 90 percent of all announcements advertised only within
NCUA, and some SSP policies viewed as disincentives. OHR plans to work with a
contractor to determine “best practices” for attracting applicants.

                            NCUA has established agency goals and benchmarks for
Affirmative Action Plan
                            women and minorities in mid to senior level positions.
for Merit Promotions
                            However, there has been a lack of documented analysis as to
the causes or impediments to the shortfalls in the CU-13 and above positions. Although
this is not required under EEO regulations, it seems apparent that such an analysis should
be performed.

During the time period of our audit, the Executive Director instituted an affirmative action
program, whereby he became the de facto selecting official and the specific applicant
identification of race, gender and handicap status was required to be annotated. The
implementation of this program, which has been rescinded, resulted in prohibited
personnel practices.

                           Based upon our observations and conclusions we have offered
Recommendations and 24 recommendations regarding the NCUA merit promotion
Agency Comments            program. Overall, OHR and the Office of Equal Opportunity
Programs agree with our recommendations. OHR believes there is a need for better
internal controls in the merit promotion program to assure full documentation of the files
and adherence to NCUA program policy. OHR is taking action to make improvements in
these areas. OHR plans to study the overall recruitment program and then develop
strategies in order to attract more applicants to advertised positions. OHR is also working


                                           2
with contractors on determining best business practices used by other Federal agencies.
The Director, Equal Opportunity Programs commented that the implementation of our
recommendations will have a positive impact on NCUA’s EEO programs. We have
included the auditee’s specific comments to each of our recommendations immediately
following the recommendation in the body of the report.




                                          3
                              AUDIT PROCEDURES


                             PURPOSE AND OBJECTIVES

The National Credit Union Administration (NCUA) employs approximately 950 persons.
Budgeted salaries and employee benefits account for approximately 73% of the total
agency budget. NCUA announced approximately 60 merit promotions per year for grades
CU 13 and above for the years 1995-1997. These positions generally are technical
specialized examiner type positions or management positions. NCUA had appointing
authority for all of these promotions until the end of 1997, following an OPM audit related
to entry level examiner hiring practices.

In August 1997, the Office of Personnel Management (OPM) withdrew NCUA’s authority
to make appointments, including Outstanding Scholar, Veterans Readjustment Authority,
reinstatement, transfer or any other competitive or Schedule A, B, or C appointment and
decertified NCUA’s Delegated Examining Unit. In November 1997, the NCUA Board
appointed a special Executive Resources Board (ERB) and directed it to review the OPM
report. As part of this review, management officials involved with merit promotions of
two supervisory examiners were interviewed. In addition, the Office of Special Counsel
investigated merit promotions, among other things. The special ERB concluded, among
other things, that the Director of OHR and other management officials were under
significant pressure to increase representation of women and minorities in the workforce,
NCUA failed to adhere to merit system principles and procedures, and there were other
management deficiencies in OHR.

Because the OPM audit identified some areas of concern in agency hiring practices, the
special ERB noted merit promotion concerns and the NCUA Office of Inspector General
(OIG) developed potential audit issues in the agency’s merit promotion program, the OIG
conducted an audit of the NCUA’s merit promotion program. The OIG issued a
preliminary report to OHR regarding merit promotions for grades CU 15 and above. Our
audit was performed in compliance with Generally Accepted Government Auditing
Standards.

The audit addressed three objectives:

1. To determine if NCUA’s merit promotion program complied with merit system
   principles.
2. To review NCUA merit promotion policies and procedures for reasonableness and
   determine if merit promotion actions complied with such policies and procedures.
3. To determine if NCUA had a valid affirmative action plan for merit promotions and
   whether merit promotion actions were consistent with this plan.




                                           4
                           SCOPE AND METHODOLOGY

The audit scope included NCUA merit promotion actions for the years 1995 through 1997
for grades CU 13 and above. We reviewed promotions for positions in the central office
and all six regional offices.

                 Our audit included the following fieldwork procedures:

1. Reviewed applicable merit promotion laws, regulations, policies and procedures.

2. Judgmentally sampled merit promotion cases for grades CU 13 and above.

3. Interviewed NCUA staff involved in the merit promotion process for general
background information and NCUA staff involved with specific merit promotion case files
reviewed.

4. Reviewed all six OIG merit promotion related investigations conducted during the past
three years.

5. Reviewed Board minutes related to six SSP promotion actions.

6. Conducted follow-up review of an October 31, 1995 OIG EEO audit.

                                    AUDIT TEAM

The audit team consisted of two members of NCUA OIG audit staff, the NCUA OIG
attorney/investigator, three National Academy of Public Administration (NAPA)
personnel experts and an OPM employee specialist.




                                         5
                                  BACKGROUND

                    During the audit time frame (1995-1997) NCUA had a total of 183
 Universe and
                    known merit promotion actions. Sixty three out of the 183 (34.4%)
 Sampling
                    actions resulted in non-selection or cancellation of the announcement.
At least a portion of these cancellations were due to the position being filled by a
concurrent applicant or a reassignment. The 183 announcements resulted in 135 selections
(note some announcements resulted in more than one selection). Over 90% were
advertised NCUA-wide only. We reviewed a judgmental sample (grades CU 13 and
above) of 87 cases of the 183 (47.5%) merit promotion cases. We concentrated our
efforts on the higher grade levels. The 87 cases sampled represented 68% of the 128
grade CU 13 and above merit promotion actions. The following table shows the merit
case breakdown by grade level and location.

                          Agency Totals             Sampled            Percent Sampled
GRADE
SSP                             16                     15                   93.8%
CU 15 and 16                    40                     35                   87.5%
CU 13 and 14                    72                     37                   51.4%
CU 12 and below                 35
Unknown                         20
TOTAL                          183                     87                   47.5%

OFFICE/REGION
Central Office                  53                     41                   77.3%
Region I                        15                     4                    26.7%
Region II                       31                     14                   45.2%
Region III                      24                     11                   45.8%
Region IV                       11                     2                    18.2%
Region V                        29                     9                    31.0%
Region VI                       16                     6                    37.5%
All Regions                     2
AMAC                            2

TOTAL                          183                     87                   47.5%

The 87 case files we reviewed resulted in the following number of applicants:

                 0-2         3-5           6-10         11+       unknown         Total
  SSP              3           8             2           1           1             15
CU 15/16           6           5            15           4           5             35
CU 13/14          10          20             4           0           3             37
 Total            19          33            21           5           9             87
   %            21.9%       37.9%         24.2%        5.7%        10.3%


                                          6
The merit promotion process involves several layers of staff involvement. There are
selecting officials, qualification raters or panels, interviewers, and technical advisors.
Additionally, the Director of OHR administers the program and the EEO officer has a
stakeholder position. We followed up the sampling of our merit promotion case file
reviews with interviews of:

       • Former Director, former acting Director and current Director of Office of
         Human Resources (OHR)
       • NCUA EEO Officer
       • Four selecting officials
       • Eight rating panel members
       • Three OHR technical advisors and three regional technical advisors


                        LAWS, REGULATIONS, AND POLICIES

                           The NCUA, like other Federal executive agencies, is required to
Laws and Regulations       implement a personnel management system consistent with Merit
System Principles, 5 CFR section 2301 (see Appendix A for a complete listing of the
Merit System Principles). These Merit System Principles are designed to ensure fairness
and objectivity in the merit promotion process for Federal employees.

Related to the Merit System Principles are Prohibited Personnel Practices, 5 CFR section
2302 (see Appendix A for a complete listing of Prohibited Personnel Practices). These
practices hold the agency head and others delegated merit promotion responsibilities
accountable for the prevention of acts that compromise the system’s fairness and
objectivity.

Also required are Federal government agency competitive promotion practices and
requirements which provide a general implementation outline for the Merit System
Principles, 5 CFR Section 300.102, 300.103 and 335.103 (see Appendix B for more).

Federal Affirmative Action Program regulations lay the foundation for agency affirmative
action program guidance and structure, 5 CFR Subchapter B Part 720 and 29 CFR parts
1608 and 1614 (see Appendix C).

                         The NCUA merit promotion policies and procedures are found in
NCUA SSP Policies        Chapter 20 of the Personnel Manual. During our audit time frame
and Procedures           the NCUA Board delegated to the Chairman authority to exercise
all authorities related to human resources management with the authority to redelegate.
The Board retained the authority to select promotion candidates to the SSP ranks. As of
December 31, 1997, all of those delegations were retained by the Board, except that the
Chairman was authorized to appoint the Executive Resources Board (ERB) members and


                                             7
designate its chairman (not the Executive Director) excepting where other specific
delegations have been given. Prior to December 31, 1997, the Executive Director was the
Chairman of the ERB.

Competitive procedures are required when filling an SSP position from the CU 15 or 16
grade level or when an SSP is to be moved more than one grade level. This would entail
issuing a vacancy announcement at least NCUA-wide and advertised at least 15 working
days, a rating and ranking of applicants, and a selection from a group of eligible
candidates. Application documentation should include a NCUA Experience and
Qualification Statement, a narrative addressing the evaluation criteria and the applicant’s
most recent performance appraisal. Interviews of candidates may or may not be
conducted. Agency policy is to fill SSP positions based on merit from among highly
qualified applicants, and that the selection will be made from within the agency whenever
possible. The ERB is responsible for rating and ranking promotion candidates and making
recommendations for selection to the NCUA Board (selecting official). Exceptions to
policy or procedure are to be approved by the Chairman of the ERB with Director of
OHR concurrence (see Appendix D).

                      The NCUA merit promotion policies and procedures for CU
CU Policies and       employees are found in Chapter 3 of the NCUA Personnel Manual.
Procedures            During our audit time frame, the NCUA Board Chairman was given
authority to exercise all authorities related to human resources management with the
authority to redelegate. On December 31, 1997, that authority was withdrawn by the
NCUA Board, except where other specific delegations have been given. Office Directors,
Regional Directors and the President of the AMAC were authorized to make selections of
employees through grade CU 16 in their areas of control. On December 31, 1997, the
Board delegated to the Director of OHR the authority to review and certify all personnel
actions, act as appointing authority for all personnel actions not withdrawn by OPM,
authority to establish rating and ranking panels, and authority to approve interview panels.

NCUA policy is to make selections from among the best qualified candidates available and
to select from within the agency whenever feasible. The techniques used in evaluating and
selecting candidates must be job related and applied without discrimination. Competitive
procedures are required for a promotion to a higher graded position or to a position at a
higher grade than the highest grade previously held on a permanent basis. The Executive
Director is responsible for coordinating, administering, reviewing and recommending
revisions to the Merit Promotion Program. OHR oversees the program’s operation and
administers all announcements not delegated to the regions. In late 1997, this regional
delegation reverted back to OHR. Essentially, the competitive process involves the
announcement of positions at least NCUA-wide and advertised at least 15 working days
(for CU 13-16), rating and ranking of applicants, conducting interviews (if desired), and
selecting from the best qualified applicants. Application documents include an NCUA
Experience and Qualifications Statement, applicant’s most recent performance appraisal,
and a supervisor’s evaluation. Rating and ranking is to be conducted by a panel when
there are more than five applicants; otherwise a technical advisor or subject matter expert


                                           8
can rate and rank. Candidates are ranked as either “Best of Highly Qualified”, “Highly
Qualified” or “Qualified”. Exceptions to policy or procedures must be requested in
writing by the selecting official and approved by the Director of OHR. See Appendix E
for a more detailed discussion of the CU merit promotion program.

                      The Executive Director served as the Agency’s EEO officer during
NCUA Affirmative      the time frame of our audit. On December 31, 1997, the NCUA
Action Program        Board delegated to the Chairman that role with authority to
redelegate to the Executive Director.

The NCUA merit promotion affirmative action plan has three parts. First is reporting
demographic data on the NCUA workforce compared to the civilian work force. Second
is the setting of affirmative action goals for the agency. Third is the annual reporting of
regional and central office management’s accomplishment of those goals. The NCUA
affirmative action program also includes the recruitment of new examiners. However, our
review only addressed merit promotion actions.

On July 11, 1996, the Executive Director issued an agency Instruction with the purpose of
establishing a process to reduce the underrepresentation of minorities, women and
disabled individuals in NCUA’s work force. The Instruction applied to Delegated
Examining Unit and merit promotion selections. It required each regional or office
director to annotate on the Merit Promotion Checklist each applicant’s sex, race, national
origin and disability, when known. This was to be attached to the merit promotion
certificate, after the selectee was noted and sent to the Director of OHR along with
interview notes or other materials used to evaluate candidates. The Director of OHR was
to forward this material to the Director EEO (Executive Director) for his approval. The
Executive Director was to notify the selecting official of his concurrence or non-
concurrence of the selection via MS-Mail. Candidates were not notified unless Executive
Director concurrence was obtained. The Instruction further stated that the race, gender
and handicap status information was to be purged from the merit promotion case files.

This Instruction also required that merit promotion panels include at least one woman or
minority group member and authorized going outside the OHR panel pool if necessary.
This Instruction has since been rescinded.




                                           9
                                  AUDIT RESULTS


                                 PRE-ANNOUNCEMENT

Prior to announcing positions for merit promotion competition, human resources staff and
agency management should perform preliminary work regarding a position to be
advertised. For instance, a position description should be in place which, among other
things, lists the position’s duties and responsibilities and target grade level. Evaluation
criteria should be developed on what knowledge, skills and abilities are required to qualify
for the position. A crediting plan should be outlined to measure how various applicant
knowledge, skills and abilities can be measured against the evaluation criteria.
Performance standards also need to be developed for the position.

Job Analysis and       The first Merit System Principle states that selection and
Crediting Plans        advancement should be determined solely on the basis of relative
                       ability, knowledge, and skills, after fair and open competition which
assures that all receive equal opportunity. Federal government competitive promotion
practices, at 5 CFR Section 300.103 (a) state that a job analysis is required as an
employment practice. A job analysis should identify the job’s basic duties and
responsibilities; the knowledge, skills, and abilities required to perform those duties and
the factors that are important in evaluating the candidates. According to Federal
government promotion and internal placement regulations, 5 CFR Sections 335.103 (a)
and (b), require the agency to adopt and administer a program designed to insure a
systematic means of selection for promotion according to merit and to include
documentation to show how candidates were rated and ranked.

The job analysis is intended to provide a link between the duties of a job and the selection
of criteria for applicants. A crediting plan is a method of determining how to rate
application information in an objective and measurable way against the position’s
evaluation criteria. These two factors, besides being required by regulation, help ensure
that the evaluation process for merit promotions is fair and objective.

Observation

None of the 15 (100%) sampled SSP merit promotion case files reviewed had a job
analysis performed or a crediting plan. None of the 72 (100%) sampled CU merit
promotion case files reviewed had a job analysis performed or a credit scoring plan. Every
announced position that we reviewed had a position description and evaluation criteria.
However, the evaluation criteria, in nearly every case, were very general and there was no
description/analysis how each of the evaluation criteria related to the position description’s
duties and responsibilities.

Crediting plans were not generated for any positions during the time period of our review.
Crediting plans are the means whereby the raters are provided guidance on how to apply


                                           10
the applicant’s knowledge, skills and abilities against the evaluation criteria. While all of
the positions we reviewed had evaluation criteria, there was no objective way to determine
how the rating scores were given relative to them. OHR officials stated that they knew
that job analysis and crediting plans were required; however they did not have these
documents in place due to lack of staff resources.

OHR began implementing job analysis and crediting plans for all positions in January
1998. Crediting plans have been established for all positions, but some of the older ones
need to be revised according to the Director of OHR. OHR is revising crediting plans as
positions open for new merit promotions. The first crediting plans adopted, in early 1998,
were drafted by the selecting officials. Currently, the selecting official or other subject-
matter expert works with OHR to draft the crediting plans. However, the subject-matter
experts have had no training in the drafting of crediting plans and the current OHR staff
have only recently begun the task. According to the Director of OHR, training is planned
for the selecting officials and OHR staff regarding drafting crediting plans. Job analyses
are also being developed for all positions as they become open for announcement.
According to the Director of OHR, staff will get some job analysis training.

                              In six of the 35 (17.1%) CU 15/16 managerial merit
 Evaluation of Managerial
                              promotions reviewed, managerial qualifications were not
 Qualifications Lacking
                              part of the supervisor’s evaluation. The former Director of
OHR stated that managerial qualification evaluation has to be valued by the Executive
Director and Board and was discussed by OHR. But according to the former Director of
OHR this was not given much attention for Supervisory Examiner and like positions. The
current OHR Director told us the agency culture has emphasized technical experience over
supervisory/managerial experience when evaluating candidates for managerial positions.

Conclusion

NCUA’s merit promotions lacked job analysis and crediting plans. Without objective
rating plans, NCUA is not in compliance with Federal regulations as stated above and this
casts doubt upon the objectivity and fairness of the rating process. However, all of the
position evaluation criteria that we reviewed appeared to be job related.

Recommendation 01

OHR should promptly pursue crediting plan and job analysis training for those staff
responsible for such documents. We applaud OHR’s current effort in the drafting of job
analysis and crediting plans.

Auditee Comment

The OHR staff received training on conducting a job analysis and developing crediting
plans January 12 - 14, 1999.




                                           11
Recommendation 02

OHR should ensure that a valid job analysis has been conducted prior to each merit
promotion announcement. The crediting plans should be developed by the closing date of
the announcement and have objective and meaningful criteria consistent with the
position’s evaluation criteria, position description and job analysis.

Auditee Comment

OHR agrees that a job analysis should be conducted prior to each merit promotion
announcement and crediting plans should be developed by the closing date of the
announcement.

Recommendation 03

We recommend that managerial factors be included in the supervisor’s evaluation for
managerial type positions.

Auditee Comment

OHR agrees that if appropriate to the position being filled, these factors should be
measured by at least one of the evaluation devices (e.g. crediting plan, supervisory
evaluation etc..) But determination of which of the examination devices is most
appropriate is an examination by examination and position by position decision.

Recommendation 04

Job analysis and crediting plan processes and procedures need to be included in the NCUA
Personnel Manual for both SSP and CU merit promotion actions.

 Vague SSP Policies    The NCUA Personnel Manual, Chapter 20 covers SSP policies
 and Procedures        and procedures. In some areas these policies and procedures are
                       impractical, in others, the manual is silent. SSP policies and
procedures generally mirror the CU policies and procedures, except for SSP specific
policies and procedures delegated to the ERB.

Observation

The Federal laws and regulations cited in Appendices A and B apply to all competitive
service positions. The differences between NCUA’s SSP and CU policies and procedures
are found in Appendices D and E. We noted some SSP policies and procedures that could
be improved. The NCUA Personnel Manual states that the selecting official determines
the SSP technical factors. SSP interview policy offers total flexibility as to which SSP
candidates will or will not be interviewed for positions. Policy does not state who is
authorized to request exceptions to SSP merit promotion policy. Exceptions are


                                         12
forwarded to the Executive Director for approval. Several SSP positions (e.g., ARDs)
report directly to another SSP (e.g., RD); however, the role of the first line SSP
supervisor in the merit promotion process is silent in stated policy.

Conclusion

Some SSP merit promotion policies and procedures are not practical. This could lead to
confusion or improper implementation of stated policies and procedures. It is not
practical to have the NCUA Board, as selecting official, develop every SSP position’s
technical selection factors. The lack of a consistent interview policy, like the CU policy,
could give the appearance of a lack of objectivity and favoritism. Having someone other
than the selecting officials (NCUA Board) approve policy exceptions could cause actions
against the Board’s wishes. And not having an immediate supervisor formally involved in
the merit promotion process appears unreasonable.

Recommendation 05

The ERB and the supervisor or subject matter expert, with Board concurrence, should
establish SSP technical selection factors.

Auditee Comment

The ERB is currently working on a similar recommendation, except for the provision of
Board concurrence.

OIG Response

The Board should concur since they are the selecting officials.

Recommendation 06

SSP interview policy should follow CU selection interview policy.

Auditee Comment

The selection interview process is not part of the examination process and may not
always require that all be interviewed. OPM does not require selecting officials to
interview all if any are interviewed. The selecting official may interview those from which
additional information is desired.

OIG Response

The policy of interviewing all candidates of the same ranking adds the appearance of
objectivity to the selection process.




                                          13
Recommendation 07

All exceptions to policy for SSP cases should be documented by the ERB and approved
by the Board.

Auditee Comment

OHR agrees other than requiring Board approval.

OIG Response

The Board as selecting official should approve all merit policy/procedure exceptions.

Recommendation 08

The immediate supervisor of the vacant position should be part of the interview panel and
should be able to offer their concurrence or non-concurrence for recommended applicants
as a part of the ERB’s recommendation to the Board.

Case File         Merit promotion case files are required to be maintained two years and
Documentation     must document the promotion action, according to Federal agency
                  promotion regulations, 5 CFR Section 335.103 (b)(5). This regulation
requires documentation to assure that merit system principles have been followed.

Observation

One SSP case file could not be located. Six of 15 (40%) sampled SSP case files had either
missing applications, applications not received timely, or the receipt of the applications
was not noted for candidates rated qualified. Two of 15 (13.3%) SSP case files had
missing or unsigned performance appraisals for candidates rated “Qualified”.

Six of 72 sampled CU (8.3%) merit promotion case files could not be located for review.
Fifteen of the 72 CU (20.8%) case files reviewed had either missing applications,
applications which had not been received timely, or the receipt of the applications was not
noted for candidates rated as “Qualified”. Eleven of the 72 CU (15.3%) case files had
either missing or unsigned performance appraisals for applicants rated as “Qualified”.

OHR staff agreed that all the above documents should have been available. In addition,
OHR staff could not explain why the documentation was not present, other than to state
that the documents may have been misplaced or misfiled.

Case file checklists are not required for any case files. According to OHR staff, the
technical advisor or their assistant is responsible for verifying that all required merit
promotion documentation is retained in the case files and the process for that is at the
discretion of the responsible party.


                                           14
In substantially every case when there had been an exception to policy, there was no
documented justification and approval in the file. The former Director of OHR stated that
written documentation for exceptions should have been in the case file. Other
interviewees could not explain why documentation was not present.

Conclusion

Case file documentation was poor. We identified a lack of review and verification of the
proper case file documentation. This lack of documentation does not provide evidence to
assure that merit principles had been followed.

Recommendation 09

A case file checklist should be required for each file. If a document is missing, a written
explanation should be in the file. The checklist should be signed by the responsible staff
person. Prior to the finalization of the merit promotion action, an OHR supervisory
review should be performed and signed by an OHR manager. Every exception to policy
should be documented in writing and approved by the appropriate authority(s). In
addition, each exception to policy should be noted on the case file checklist.

Auditee Comment

OHR is advertising for a policy specialist who will be responsible for HR internal
controls, including controls to ensure files are properly maintained and documented. To
implement the above recommendation at this time would be premature and would add a
layer of review that will slow down the staffing process when other quality processes
could be used more efficiently such as tighter standard operating procedures, sampling
reviews, or independent reviews.

OIG Response

A case file checklist signed by responsible staff would not be overly burdensome and
written explanations should be required in every instance to fully document the actions
taken.

 Affirmative     The current NCUA affirmative action plan for merit promotions states
 Action          that the agency does not have enough information available to identify the
                 problems and/or barriers to promotions for women and minorities in
NCUA’s staff. NCUA’s EEO office has proposed a survey of all supervisors to determine
the causes of the shortfalls. Once the survey is received, the Office of Equal Opportunity
Programs will make appropriate recommendations to the NCUA Board. According to the
NCUA EEO Officer, such a survey was done at the time of the last OIG EEO audit in
1995.




                                           15
The agency culture has been that substantially all NCUA promotions are filled from within
the agency (advertised NCUA-wide). The EEO program has placed a primary emphasis
on the recruitment of new examiners, and has several programs in place to address the
recruitment of women and minorities. The purpose is that when the initial NCUA
workforce recruitment is well diversified, it will provide a diverse pool to rise within the
agency.

The agency has never had an approved program of allowing race, gender, national origin
or handicap status information to be used in the selection phase of merit promotions,
except for the NCUA Instruction for Affirmative Action Programs implemented on July
11, 1996 by the Director of EEO (Executive Director). This Instruction was later
rescinded. The current EEO affirmative action plan annually reports demographic
statistical data and its relative standing compared to the civilian labor force and obtains
regional reports of progress towards demographic goals. The regions are supposed to
report on their strategies to address any shortfalls in their goals. The NCUA strategic plan
has adopted numerical work force goals for women and minorities in its mid and senior
level positions. According to OHR staff, there currently is no known affirmative action
program or strategies in place for merit promotions.

The NCUA Office of Equal Opportunity Programs (EOP) has offered the following
strategies related to NCUA upper level positions in prior years:

• Analyze vacancies with a view toward announcing Upward Mobility Program
  (2/15/95)
• Develop an improved data collection/analysis system to identify barriers to promotions
  for women and minorities (2/15/95)
• Develop a survey questionnaire that captures minority and sex of separated employees
  (2/15/95)
• Establish an SSP Development Program (11/15/95)

Observation

The agency has established goals and benchmarks in the annual EEO plan and the
agency’s strategic plan. However, there has been a lack of documented analysis as to the
causes or impediments to the shortfalls in the CU 13 and above positions. Therefore there
are no specific strategies in place based on specific causal analysis that address specific
problem area(s) by demographic shortfall (women, Hispanic, etc.). EEO regulations do
not require any analysis to be performed for any grouping of under 100 employees. The
grades CU 13 and above at NCUA have fewer than 100 employees. However, the agency
has established an Annual Performance Goal for the percentage of women and minorities
in mid and senior level positions.




                                           16
Conclusion

There is a lack of documented analysis of problems and impediments facing women and
minorities seeking NCUA promotions. Since the agency has established an annual
performance goal of representation of women and minorities in mid to senior level
positions, it seems apparent that an analysis should be performed.

Recommendation 10

We recommend that in addition to the office of EOP’s proposed survey of agency
supervisors and managers, the office of EOP incorporate merit promotions into their
annual plan and perform additional analysis to determine the causes of
underrepresentations of women and minorities at the grade CU 13 level and above. This
analysis could include the following:

• Analyze (potential total applicants and demographic makeup of potential pool) merit
  promotion positions to determine if advertised areas of consideration are broad
  enough to attract enough applicants of underrepresented groups.

• Survey potential NCUA candidate pools (underrepresented groups) to determine if
  they are applying for promotions, if not why not, or their perceived impediments.

Auditee Comment

The Director of Equal Opportunity Programs responded that this recommendation can
assist NCUA in meeting its equal employment opportunity responsibilities relative to
career development and promotions. By performing additional analysis, we can
determine the causes of the persistent underrepresentation of women and minorities at
the CU-13 level and above.




                                        17
                                     RECRUITMENT

NCUA policy is to promote from within whenever possible. For grades CU 13 and above
the agency can reassign/transfer employees who have the basic qualifications for the open
position and have at least one year of time in grade at the full performance level in a
competitive position held on a permanent basis. The agency can also advertise
competitively for a merit promotion; in which case the position can be announced NCUA
wide, government wide or all sources (NCUA, government and general population). The
job announcements should provide, among other things, a description of the duties and
responsibilities, the grade(s), including the journey levels, of the position, open dates of
the announcement and the criteria used to evaluate the applicants. The Director of EEO is
responsible for oversight of all affirmative action programs at NCUA

Attracting      Announcements for jobs at the CU 13 and above grade level must be
Applicants      advertised for a minimum of 15 working days and be advertised at least
                agency wide under NCUA policy. SSP exceptions to policy require the
Executive Director’s and Director of OHR’s approval. CU exceptions to policy require
the Director of OHR’s approval. According to the first merit principle , 5 CFR Section
2301, recruitment should be from qualified individuals from appropriate sources to achieve
a work force from all segments of society. In addition, according to Federal agency
promotion requirements, 5 CFR Section 335.103 (b)(2), areas of consideration must be
sufficiently broad to ensure the availability of high quality candidates. SSP stated policy is
unclear as to who is responsible for deciding announcement time frames and areas of
consideration. The Director of OHR stated that the ERB is developing a policy to clarify
this issue. Whereas, CU selecting officials are responsible for deciding announcement time
frames and areas of consideration beyond the required minimum and must gain Director of
OHR concurrence for times and areas below the minimum.

The following are some current SSP policies: Declination of an SSP involuntary
reassignment may result in removal; post probationary SSPs removed for performance
reasons are guaranteed placement in a position outside the SSP; and the NCUA Personnel
Manual still provides for a bonus program which is goal specific, although this program
has been non-operational for a few years.

Observation

Two of 15 (13.3%) sampled SSP announcements were open less than the required 15
working days. Three of 15 (20%) SSP merit promotion announcements generated fewer
than three applicants. Eleven of 15 (73.3%) announcements generated five or fewer
applicants. Seven of 15 (46.7%) reviewed SSP promotion case files resulted in a non-
selection. Based on our review of Board minutes, we noted that the ERB usually only
recommended one candidate for selection to the NCUA Board, as opposed to offering a
choice of candidates.



                                           18
One SSP vacancy was announced three times with two of those times open less than the
required 15 days. One of the announcements generated fewer than three candidates. The
selectee, a woman, had been on extended detail to the position and the selection was made
during the time frame of the NCUA’s July 11, 1996 Affirmative Action Instruction. One
SSP case file contained an unsolicited memo from a candidate’s supervisor giving the
appearance of influencing the selection of a female. Another SSP case file contained
inappropriate leading and suggestive language in two candidate non-select letters from the
Executive Director, stating; “ I will promise to look your way in the future”. In addition,
one OIG investigation issued in 1998 concluded that one SSP had been provided unfair
advantage when the individual obtained a promotion in part because the position
description was narrowly written to fit the individual’s qualifications.

Eleven of 72 (15.3%) reviewed CU vacancy announcements were open for fewer than the
required 15 working days. Substantially all of these did not have written exception
approval in the case file. Interviewees offered no explanations why positions were not
advertised for at least 15 working days other than to offer that perhaps there was an
immediate need to fill a position. Sixteen of 72 (22.2%) CU announcements generated
fewer than three applicants. Forty one of 72 (56.9%) CU announcement generated five
or fewer applicants. Thirteen of 72 (18%) CU announcements were canceled. None of
the canceled case files had any documentation as to the reasons for the cancellations.

OHR has never done a formal study of why the agency has had difficulty in attracting
applicants for positions. Several interviewees suggested reasons why people did not apply
for positions; such as excessive travel, not wanting to relocate, and preferring the
independence of remaining in the field. However, no interviewees knew of any analysis or
recommended solutions to resolve the problems. In November 1998, the agency instituted
a bonus program for new examiners and a compensation package for excess overnight
travel.

Conclusion

The relatively low number of applicants for NCUA management and specialized positions
indicates a problem. Twenty two percent (19 of 87) of the reviewed announcements did
not generate an acceptable number of applicants to ensure attracting applicants from all
segments of society. With over half of the announcements generating five or fewer
applications, the potential promotion pools are relatively small. This limits management’s
choice and perhaps quality of choice in the agency’s upper level tiers. These problems
could have been exacerbated because: announcements were advertised for short periods
of time; the process of rating and ranking appearing suspect; over 90% of all
announcements were advertised only within NCUA; and SSP policies could be viewed as
disincentives (no guaranteed CU grade fall back rights, no bonus plan, and the relatively
temporary status of SSPs in their positions). The short time frames for application and
some inappropriate comments, as discussed above, in the case files also indicate a lack of
objectivity in the merit promotion process.




                                          19
Recommendation 11

No jobs should be advertised for fewer than 15 days because employees may be detailed
into vacant positions for short periods.

Auditee Comment

We agree that all jobs should meet the minimum advertisement periods, however to state
that the 15 days is the best time period is premature. OHR is working with a contractor to
determine the “best practices” used in other Federal agencies regarding advertisement
periods and areas of consideration.

OIG Comment

The 15 day period is mentioned since that is current policy. We agree that the selection
of a specific time period is the purview of OHR. However, this time period should be
established to provide sufficient time for candidates to prepare their applications for
submittal.

Recommendation 12

OHR should analyze the potential pool of candidates within NCUA, to determine the
causes for the low number of applications and then make recommendations to improve the
prospects or advertise in a broader area of consideration.

Auditee Comment

OHR agrees to conduct an analysis of the potential pool of candidates within the agency.
Recommendations will be appropriate to the findings of the study. It is premature to
make such recommendations at this time.

Recommendation 13

OHR should determine the reasons for merit promotion non-selections/cancellations,
analyze the reasons, and offer recommendations to correct any noted problems in
recruitment.

Auditee Comment

We do not concur with this recommendation. This could be viewed as a restriction to
management’s right to select from a properly rated and ranked list of candidates.




                                          20
OIG Response

We disagree that this would restrict management’s right to select. This analysis would be
used to determine any problems in recruiting to minimize announcement cancellations and
subsequent reannouncements.

Recommendation 14

The ERB and supervisor should determine announcement time frames and areas of
consideration.

Auditee Comment

The ERB is developing procedures to this effect.

Recommendation 15

The ERB Chairman should offer the NCUA Board a choice of candidates, with three
being the minimum or all qualified applicants.

Auditee Comment

If the job had an adequate announcement period, the number of best qualified candidates
provided should not be restricted by a required minimum number of candidates. While
the ERB does give the Board a recommended candidate, they do offer the full list of BQ
candidates for the Board’s consideration. The Board may select from any of the best
qualified candidates or from other appropriate sources.

OIG Response

Our recommendation is not intended to restrict the number of qualified candidates but
rather, to give the Board a broader number of choices.




                                         21
                            EVALUATION OF APPLICANTS

All competitive merit promotion candidates are required to submit application documents
which demonstrate their knowledge, skills and abilities to meet the requirements of the
advertised positions. In order to provide all applicants a fair and objective opportunity to
be considered, a rating is done by persons other than the selecting official. Then the
applicants are ranked (separated) into Best of Highly Qualified, Highly Qualified, and
Qualified groups.

 Rating and         Merit system principles provide that selection and advancement should
 Ranking            be determined solely on the basis of relative ability, knowledge, and
                    skills, after fair and open competition which assures that all receive
equal opportunity. Further, they provide that all employees and applicants for
employment should receive fair and equitable treatment in all respects of personnel
management. The ERB is required to rate and rank promotion applicants for SSP
positions and make recommendations to the NCUA Board for selection. The Executive
Director was the Chairman of the ERB and the Chairman of the Board appointed the five
member ERB. The Director of OHR was to be a permanent member of the ERB. As of
December 31, 1997 the NCUA Board makes appointments to the ERB and the Executive
Director is no longer a member.

The rating and ranking process for CU applicants is slightly different and described more
fully in Chapter 3 of the NCUA Personnel Manual. Prior to the delegation being
withdrawn from the field, Regional or OHR technical advisors received all applications
and determined which candidates met the basic qualification requirements for the position.
Rating and ranking is conducted to determine the best qualified candidates and to offer
recommendations to the selecting official. NCUA policy states that when there are more
than five applicants for a CU announcement, a rating panel of at least three members is
convened. Each year OHR obtains nominations from each region and the central office
for rating panel members. The selecting official can then choose who should be on a panel
for a given announcement. For central office announcements, OHR typically selected
panel members. When there are five or fewer applicants a technical advisor or a subject
matter expert, appointed by the selecting official, can perform the rating and ranking. The
purpose of the rater or rating panel is to make rating and ranking process fair and
objective.

Raters evaluate each candidate, separately and individually, based upon the application
materials provided. After all candidates have been rated individually, a consensus meeting
is held among panel members to discuss scoring discrepancies and to determine the
ranking of the candidates as to who is best qualified. NCUA policy is to rank candidates
as Best of Highly Qualified (BHQ), Highly Qualified (HQ), and Qualified (Q). This is
typically done by either totaling or averaging the applicants’scores and finding natural
breaks in those scores for ranking groupings. The panel or rater will list the individual


                                           22
candidate names by rank grouping on a merit promotion certificate which is forwarded to
the selecting official. Interviews may be held. If one candidate in a ranking group is
interviewed, all of the candidates in that group must be offered an interview.

Observation

Eleven of the 15 (73.3%) sampled SSP merit promotion case files reviewed contained
either no evidence that the ERB had convened or no evidence of the rating panel’s scores.
We were unable to obtain a listing of the members of the ERB for the years 1995 and
1996. In addition, the Director of OHR was not a member of the ERB during this time
period, as required by NCUA Board delegation. We did note that the ERB had begun
functioning again in 1997.

Nine of 72 (12.5%) sampled CU merit promotion cases either had no evidence that a
rating panel convened when one was required or contained no evidence of rating scores
given. OHR was unable to explain the cause for this breakdown in the merit promotion
system. Technical advisors had noted the difficulty in convening and coordinating rating
panels. In one OIG investigation, regional management, in two separate merit promotion
actions, had discussed with rating panel members their preference for candidates.

Conclusion

The absence of ERB involvement in the SSP promotion process tends to cast doubt on the
objectivity of this process. The lack of documentation as to the existence of CU rating
panels and how applicants were rated and rating panel tampering casts a serious doubt on
the objectivity of the rating and ranking of candidates.

Recommendation 16

We recommend that the Director of OHR be the permanent Chairperson of the ERB in
order to add personnel expertise at the top level and to ensure continuity and objectivity in
the SSP process.

Auditee Comment

OHR has no objection to this recommendation.

Recommendation 17

Complete documentation as to the ERB’s role in rating, ranking, interviewing and
selection recommendations should be documented in the case files and signed by each
ERB member.




                                           23
Auditee Comment

OHR noted that the final interview sheet is signed by each of the ERB members.

OIG Response

This recommendation was made since the case files reviewed contained no such signed
interview sheets.

Recommendation 18

We recommend that complete documentation on the rating and ranking process be
retained in the CU case files to support the recommendations made. This documentation
should be signed by the rater/panel members and interviewer(s).

Auditee Comment

While the file should document which candidates were interviewed and who interviewed
them, no interview notes should be retained in the file.

OIG Response

If not retained in the file, interview notes should be retained by the interviewers to provide
a more complete record of the merit promotion action if such action is later questioned.

Recommendation 19

We recommend the policy of obtaining nominations for a rating panel pool be
discontinued, since it is difficult to convene panels and these panel pools may not be
subject matter experts in all current position openings. We recommend that a list of
subject matter experts be retained by OHR for each promotable position and OHR select
panel members from that list to serve for each merit promotion action. The subject matter
expert should be a person who is knowledgeable about the requirements and
responsibilities of the job. This may be a current supervisor, an employee who previously
served in the position or an employee this is very knowledgeable about the position.

Auditee Comment

OHR agreed with this recommendation.




                                           24
Observation

None of the raters we interviewed had been trained on how to rate and rank candidates.
When we asked rating panel members how they rated the applicants without crediting
plans, they responded that they used their best judgment based upon the application
information given. The relative weights given to various application documents
(performance appraisal, application, etc.) varied by rater. If the rater knew the work of an
applicant, that may have influenced their rating. There was no training given to rating
panel members on how to rate the applicants, although they were given general guidance
by technical advisors.

Conclusion

Due to the lack of crediting plans and lack of training, raters used their best judgment in
the use and weighting each candidate’s application materials in producing applicant ratings
and rankings.

Recommendation 20

We recommend that all members who serve as raters or on rating panels be given training
as to how to rate and rank applicants.

Auditee Comment

OHR agreed with giving an orientation on using crediting plans and what is permissible
in the rating process.




                                           25
                                        SELECTION

Once the recruitment phase has generated a sufficient pool of qualified applicants from all
segments of society and an objective rating and ranking has produced a choice of the best
qualified applicants, then the selection process can begin. The selecting official may
conduct interviews and review application materials to select a candidate for a promotion,
or they may reassign/transfer an employee, or they may decide not to make a selection at
all.

Selection of    Federal government competitive practices, 5 CFR section 300.102 (b)
Best Qualified  provides that a selection should result from among the best qualified
Candidates      candidates. NCUA CU policy states this also, but with the caveat that a
                selection of a lesser qualified candidate can take place if it is justified in
writing and approved by the Director of OHR.

Observation

We identified four selections where lesser ranked candidates were selected without
documented justification over higher ranked candidates. In one OIG investigated case a
preselection was made in order to hire a minority candidate. In the second case, one
candidate was ranked as BHQ. A subsequent promotion certificate had the selectee’s
ranking changed from HQ to BHQ, with no justification or known reason in the case file
or upon inquiry. In the third case, a HQ candidate was selected over a BHQ candidate
with the only documentation being a summary of the interviews conducted and no
explanation as to why the HQ candidate was better qualified than the BHQ candidate. In
the last case, a position was advertised as a CU 12/13 position. Two selection certificates
were drawn; one for CU 12s which had two qualified candidates and the other certificate
for CU 13s which had two BHQ candidates and three HQ candidates. One of the two
candidates selected was a CU 12 qualified ranked candidate with no written justification or
known reason upon inquiry why the qualified candidate was selected over the CU 13 BHQ
or HQ candidates.

Conclusion

The selection of lesser ranked candidates negates the purpose of candidate rating and
ranking and gives the appearance of unfairness.

Recommendation 21

The recommendations provided by a rater or ranking panel via the merit promotion
certificate forwarded to the selecting official should only provide the names of the best
qualified candidates.




                                            26
Auditee Comment
OHR agreed in concept with recommendations 21 and 22 however, until it evaluates the
problems of attracting well qualified applicants for positions, it believes these
recommendations are premature. This issue will be part of OHR’s best practices review.

Recommendation 22

Due to the relatively small number of applicants per announcement (59.8% of reviewed
cases had five or fewer applicants) and to streamline the ranking process, we recommend
that candidates only be ranked as highly qualified or qualified.

Auditee Comment

See Auditee Comment to Recommendation 21.

                The Executive Director had authority to establish and maintain the EEO
 Affirmative    program as well as make final settlement of, and to issue final agency
 Action         decisions for, NCUA discrimination complaints. As of December 31, 1997
                the Chairman has authority to establish and maintain an EEO program,
with authority to redelegate to the Executive Director.

The NCUA’s Affirmative Action Program incorporates many aspects beyond the scope of
this audit (e.g., discrimination complaints, entry level recruiting, etc.). During the period
1995 through 1997, the NCUA affirmative action program relating to merit promotions
was essentially reporting demographic statistics for the agency by grade levels and job
categories. In addition, the NCUA EOP would annually request the accomplishments of
each region to gauge the agency’s progress in narrowing demographic statistical gaps as
compared to statistics in the civilian labor force from the US Census Bureau.

Observation

On July 11, 1996, the Executive Director signed an NCUA Affirmative Action
Recruitment Instruction and distributed it to all NCUA office directors, regional directors
and the President of the AMAC. Its purpose was to establish a process to reduce the
underrepresentation of minorities, woman and disabled individuals in NCUA’s workforce.
This Instruction applied to all Delegated Examining Unit (DEU) and merit promotion
selections. As it related to merit promotions, the Instruction required all office directors
and regional directors to:

1. Duplicate merit promotion checklists and annotate them with the applicant’s sex, race,
   national origin, and disability when known and attach the list to the merit promotion
   certificate(s).




                                           27
2. The merit promotion certificate(s) were to be sent to the Director of OHR, with the
   name of the selectee noted, and interview notes or other materials used to evaluate
   candidates interviewed.
3. The Director of OHR was to forward a copy of all the materials to the Director EOP
   and a copy to the Executive Director for approval.
4. Annotated promotion checklists were not to be retained in the merit promotion case
   files.
5. All merit promotion panels were required to include at least one woman or minority
   group member
6. By September 30th of each year, regional directors were required to send a copy of
   their regional Affirmative Employment Recruitment Program Plan and
   Accomplishment Report to the Director of EOP and a copy to the Director of OHR.

Contrary to the July 1996 Instruction, we noted 14 of 72 (19.4%) case files where the sex,
race, and disability data was still present. During the time period of this Instruction there
was a marked decline in the selection of white males to merit promotions.

The chart below shows the percentage of white males selected for merit promotions.


  60
  50
  40
  30
  20
  10
   0
         1995       1996      1997




Three OIG investigations completed in 1998 concluded that race or national origin had
been improperly used as a selection factor for three CU positions, constituting prohibited
personnel practices. In two of these cases, the Executive Director overrode the selecting
official’s choice of white male candidates in favor of minority candidates. In the other
case, an exception to policy was made to recruit two grades below full performance level
and the regional management tampered with the rating panel in favor of a minority
candidate. One other OIG investigation concluded a prohibited personnel practice was
committed, when a position description was narrowly written to meet the qualifications of
a selected minority candidate.




                                           28
Conclusion

The NCUA’s July 11, 1996 Affirmative Action Program Instruction requiring the
identification of applicants by race, gender, and handicap status improperly permitted
identification of candidates by race, sex, and disability at the point of selection. This
resulted in occurrences of prohibited personnel practices when the selecting official based
a selection on an illegal non-merit factor. In addition, the establishment of the Executive
Director as the de facto selecting official was contrary to NCUA Board delegated
authority. The policy of purging the identifying information from the case files provided a
lack of documentation for the affirmative action plan itself. The effect of this policy had a
negative impact on the merit promotion opportunities for white males.

Because the Affirmative Action Program Instruction of July 11, 1996 has been rescinded,
we do not offer a recommendation.

Observation

 When we followed up on the OIG EEO audit issued October 31, 1995, we discovered
only partial adherence to the recommendations agreed to by the agency. A prior
recommendation of the OIG’s October 1995 EEO audit called for the Director of EEO to
stay abreast of personnel and other developments for EEO impact. However, the only
action taken on EEO impact, for merit promotions, was the establishment of the July 1996
Affirmative Action Program Instruction.

Our 1995 EEO audit also recommended the separation of the functions of the Director of
EEO (Executive Director) and the EEO Officer. While the agency has authorized the
hiring of a new Director of EEO, this position has remained unfilled and the new
Delegations of Authority have the Chairman as the head of the EEO program with the
authority to redelegate to the Executive Director.

Conclusion

Since past strategies (July 1996 Instruction) were improperly incorporated by the
Executive Director, as EEO Director, and the Executive Director also oversees the merit
promotion program (see Appendix E), we believe the agency should change this
organizational structure to prevent any future problems or conflicts of interest.

Recommendation 23

We recommend that the NCUA fill the authorized position for Director of EOP. In
addition, the Director of EOP should review exceptions to the merit promotion policies
and advise the OHR Director of any adverse affirmative action program impact.




                                           29
Auditee Comment

OHR disagrees, stating this is an OHR function. EOP stated that this recommendation
would assist NCUA to ensure that personnel practices do not adversely affect the
agency’s affirmative employment policies.

OIG Response

We believe EOP exception review with OHR concurrence would strengthen affirmative
action programs.

Recommendation 24

We recommend that the NCUA Board consider the realignment of EEO Director and
EEO Officer positions to separate the personnel action and decision-making functions
from the EEO functions, and thereby remove any appearance of conflict of interest. We
therefore recommend that the Board delegate all EEO functions to the Director of Equal
Opportunity Programs who would report directly to the NCUA Board.




                                        30
                                    APPENDIX A

                         FEDERAL GOVERNMENT
                        MERIT SYSTEM PRINCIPLES
                                  and
                         PROHIBITED PRACTICES


NCUA as a federal Executive agency is required to implement personnel management
consistent with the following nine merit system principles (5 CFR section 2301):

1. Recruitment should be from qualified individuals from appropriate sources in an
   endeavor to achieve a work force from all segments of society, and selection and
   advancement should be determined solely on the basis of relative ability, knowledge,
   and skills, after fair and open competition which assures that all receive equal
   opportunity.
2. All employees and applicants for employment should receive fair and equitable
   treatment in all respects of personnel management without regard to political
   affiliation, race, color, religion, national origin, sex, marital status, age, or
   handicapping condition, and with proper regard for their privacy and constitutional
   rights.
3. Equal pay should be provided for work of equal value, with appropriate consideration
   of both national and local rates paid by employers in the private sector, and
   appropriate incentives and recognition should be provided for excellence in
   performance.
4. All employees should maintain high standards of integrity, conduct, and concern for
   the public interest.
5. The Federal work force should be used efficiently and effectively.
6. Employees should be retained on the basis of the adequacy of their performance,
   inadequate performance should be corrected, and employees should be separated who
   can not or will not improve their performance to meet required standards.
7. Employees should be provided effective education and training in cases in which such
   education and training would result in better organizational and individual
   performance.
8. Employees should be protected against arbitrary action, personal favoritism, or
   coercion for partisan political purposes, and prohibited from using their official
   authority for influence for the purpose of interfering with or affecting the result of an
   election or a nomination for election.
9. Employees should be protected against reprisal for the lawful disclosure of information
   which the employees reasonably believe evidences a violation of any law, rule, or
   regulation, or mismanagement, a gross waste of funds, an abuse of authority, or a
   substantial and specific danger to public health and safely.




                                          31
Related to this, 5 CFR Section 2302 states that the head of the agency and any individual
to whom the head of an agency delegates authority for personnel management or any
aspect thereof shall be responsible for the prevention of prohibited personnel practices.
The law directs that any employee who has authority to take, direct others to take,
recommend, or approve any personnel action, shall not, with to respect to such authority:

1. Discriminate for or against any employee or applicant for employment on the basis of
   race, color, religion, sex, national origin, age, handicapping condition, marital status or
   political affiliation.
2. Solicit or consider any recommendation or statement, oral or written, with respect to
   any individual who requests or is under consideration for any personnel action except
   as provided under section 3303(f).
3. Coerce the political activity of any person (including the providing of any political
   contribution or service), or take any action against any employee or applicant for
   employment as a reprisal for the refusal of any person to engage in such political
   activity.
4. Deceive or willfully obstruct any person with respect to such person’s right to
   compete for employment.
5. Influence any person to withdraw from competition for any position for the purpose of
   improving or injuring the prospects of any other person for employment.
6. Grant any preference or advantage not authorized by law, rule, or regulation to any
   employee or applicant for employment 9including defining the scope or manner of
   competition or the requirements for any position) for the purpose of improving or
   injuring the prospects of any particular person for employment.
7. Appoint, employ, promote, advance, or advocate for appointment, employment,
   promotion, or advancement, in or to a civilian position any individual who is a relative
   of such employee if such position is in the agency in which such employee is serving as
   a public official or over which such employee exercises jurisdiction or control as such
   an official.
8. Take or fail to take, or threaten to take or fail to take, a personnel action with respect
   to any employee or applicant for employment because of any disclosure of information
   by an employee or applicant or disclosure to the Special Counsel or to the Inspector
   general of an agency or another employee designated by the head of the agency to
   receive such disclosures of information which the employee or applicant reasonably
   believes evidences a violation of any law, rule, or regulation or abuse, or gross
   mismanagement, a gross waste of funds, and abuse of authority, or a substantial and
   specific danger to public health and safety.
9. Take or fail to take, or threaten to take or fail to take, any personnel action against any
   employee or applicant for employment because of the exercise of any appeal,
   complaint, or grievance right granted by any law, rule or regulation, testifying for or
   otherwise lawfully assisting any individual in the exercise of any right referred to
   above, cooperating with or disclosing information to the Inspector General of an
   agency, or the Special Counsel, in accordance with applicable provisions of law or for
   refusing to obey an order that would require the individual to violate a law.




                                           32
10. Discriminate for or against any employee or applicant for employment on the basis of
    conduct which does not adversely affect the performance of the employee or applicant
    or the performance of others.
11. Take or fail to take any other personnel action if the taking of or failure to take such
    action violates any law, rule, or regulation implementing, or directly concerning, the
    merit system principles contained in Section 2301.




                                           33
                          APPENDIX B
                     FEDERAL GOVERNMENT
               REGULATORY EMPLOYMENT PRACTICES
                              and
                   PROMOTION REQUIREMENTS




The following employment practices are established for Federal government competitive
promotion practices per 5 CFR Section 300.102

(a) Be practical....fairly test the relative capacity and fitness of candidates...
(b) Result in selection from among the best qualified candidates
(c) ....without discrimination...or other nonmerit grounds

and Section 300.103

(a) ....based on a job analysis to identify (1) basic duties and responsibilities (2)
    knowledge, skills, and abilities...(3) factors that are important in evaluating candidates

The following Federal agency promotion requirements are given per 5 CFR Section
335.103

(a) ...agency has adopted and is administering a program designed to insure a systematic
    means of selection for promotion according to merit
(b)(1)...establish procedures for promoting employees which are based on merit and
available in writing to candidates. Agencies must list appropriate
exceptions...Actions...shall be based solely on job-related criteria
(b)(2)Areas of consideration must be sufficiently broad to ensure the availability of high
quality candidates....
(b)(4) ...management’s right to select or not select from among a group of best qualified
candidates...in deciding which source or sources to use, agencies have an obligation to
determine which is most likely to best meet the agency mission, objectives, contribute
fresh ideas and new viewpoints and meet the agency’s affirmative action goals.
(b)(5) ...maintain a record....sufficient to allow reconstruction of the promotion action,
including documentation on how candidates were rated and ranked.




                                             34
                       APPENDIX C
                  FEDERAL GOVERNMENT
         AFFIRMATIVE ACTION PROGRAM REGULATIONS

The following three regulations relate to agency affirmative action programs:

Title 29 CFR Part 1608 Affirmative Action; Section 1608.4

An affirmative action plan or program under this section shall contain three elements: a
reasonable self analysis; a reasonable basis for concluding action is appropriate; and
reasonable action.
When an employer has reason to believe that its selection procedures have exclusionary
effect .....it may....include, but are not limited to the following: The establishment of a long
term and short range, interim goals and timetables for the specific job classifications, all of
which should take into account the availability of basically qualified persons in the relevant
job market; a recruitment program designed to attract qualified members of the group in
questions; a systemic effort to organize work and re-design jobs in ways that provide
opportunities for persons lacking journeyman level knowledge and skills; revamping
selection instruments

Title 5 CFR Subchapter B Part 720 Affirmative employment programs; Section 720.204

....agency must conduct a continuing program for the recruitment of minorities and
women in positions...to insure equal employment opportunities without discrimination...
Where an agency...has determined that an applicant pool does not adequately provide for
consideration of candidates from any underrepresented group the agency...must take one
or more of the following actions: Expand or otherwise redirect their recruitment activities
in ways designed to increase the number of candidates from underrepresented groups in
that applicant pool; use selection methods involving other applicant pools which include
sufficient numbers of members of the underrepresented group; notify the office responsible
for administering that applicant pool, and request its reopening of application receipt in
support of expanded recruitment activities...; and/or take such other action consistent with
law which will contribute to the elimination of underrepresentation...
Section 720.205 Each agency must have an up-to-date equal opportunity recruitment
program plan covering recruitment for positions at various organizational levels and
geographic locations within the agency.

Title 29 CFR Part 1614 Federal Sector Equal Employment Opportunity

Subpart F Section 1614.601

Each agency shall establish a system to collect and maintain accurate employment
information on the race, national origin, sex and handicap(s) of its employees. Data on
race, national origin and sex shall be collected by voluntary self-identification. And agency
shall not collect or maintain any information on the race, national origin or sex of


                                            35
individual employees except when an automated data processing system is uses in
accordance with standards and requirements...The agency may use the data only in studies
and analyses which contribute affirmatively to achieving the objectives of the equal
employment opportunity program. An agency shall not establish a quota .......




                                         36
                               APPENDIX D
                       NCUA SSP MERIT PROMOTION
                        POLICIES AND PROCEDURES


NCUA BOARD DELEGATED AUTHORITIES

The NCUA Board delegated authorities were revised as of December 31, 1997. During
our audit time period the NCUA Board delegated authorities were:

The Chairman of the Board had authority to exercise all authorities related to human
resources management with authority to redelegate. The Board retained authority to
approve appointments, reassignments and promotions of all SSP positions. As of
12/31/97, the NCUA Board retains all human resource delegations not specifically
delegated. As of 12/31/97 the Chairman has authority to appoint the members of the ERB
and its chairperson. In addition, the Executive Director can not serve as a member of the
ERB on matters concerning the selection and promotion of SSP.

The Executive Resources Board (ERB) had authority to staff Senior Staff Position (SSP)
needs. The ERB had authority to review the selecting official’s proposal and make
recommendations to the Board regarding merit promotion actions. As of 12/31/97 the
Executive Director has authority to review ERB actions and present the recommendations
to the Board. As of 12/31/97, the ERB has authority to rate, rank, interview and make
recommendations to the Board on all personnel actions involving SSP promotions; as well
as the authority to review adverse actions and grievances of any SSP and make
recommendations to the Board.

As of 12/31/97, the Director of OHR has the authority to review and certify all personnel
actions, act as appointing authority for all personnel actions not withdrawn by OPM,
authority to establish rating and ranking panels (except for SSPs), and authority to
approve interview panels (except SSPs).

NCUA POLICIES AND PROCEDURES - NCUA Personnel Manual, Chapter 20

The chairman oversees all matters concerning SSPs. The Executive Director is
responsible for authorizing personnel actions, coordinating, administering, reviewing and
recommending SSP policy revisions. The Director OHR is responsible for the
development and implementation of SSP policy. The Executive Resources Board (ERB)
makes merit promotion recommendations to the NCUA Board (selecting official).

The ERB consists of three to five members as appointed by the Chairman, with the
Executive Director as the Chairman of the ERB. ERB members serve two year terms
with a mix of regional and central office SSPs. The Director of OHR is a permanent
member of the ERB.



                                          37
It is NCUA policy to fill SSP positions based on merit from among highly qualified
applicants and that the selection will be made from within the agency whenever possible.
Competitive procedures (position advertised, applicant rating and ranking, selection from
group of eligibles) is required when an SSP position is filled from the CU 15/16 grades.
Competitive procedures are also required when moving an employee more than one pay
level or when hiring non-status candidates.

The source of filling SSP positions can be from vacancy announcements, promotions,
reassignments, reinstatements and transfers and will be based on the availability of well-
qualified candidates.

Qualification standards are to include six listed managerial factors and appropriate
technical standards developed by the selecting official or their designate.

Vacancy announcements must be advertised at least NCUA-wide and be open for at least
15 working days.

Applicants must submit NCUA form 1056, “NCUA Experience and Qualifications
Statement”, a narrative addressing the evaluation criteria, and their most recent
performance appraisal. Applications must be received or postmarked by the
announcement closing date.

The ERB will evaluate eligible candidates based on such factors as their experience,
training, education, awards, and supervisory appraisal leading to a recommendation of
selection to the NCUA Board. The ERB may delegate the rating and ranking to a panel of
three position knowledgeable individuals of at least the same grade as the position. The
ERB may interview who they deem appropriate. An OHR staff person will serve as
technical advisor to the ERB panel.

Required documentation for vacancy announcements will be retained by OHR for two
years.

Exceptions to SSP staffing procedures must be requested in writing to the Chairman of the
ERB via the Director of OHR approval. An approved exception will be made part of the
official case file.




                                           38
                              APPENDIX E
                       NCUA CU MERIT PROMOTION
                       POLICIES AND PROCEDURES


NCUA BOARD DELEGATED AUTHORITIES

The NCUA Board delegated authorities were revised as of December 31, 1997. During
our audit time period the NCUA Board delegated authorities were:

The Chairman of the Board had authority to exercise all authorities related to human
resources management with authority to redelegate. The Board retained authority to
approve appointments, reassignments and promotions of all SSP positions. As of
12/31/97, the NCUA Board retains all human resource delegations not specifically
delegated. As of 12/31/97 the Chairman has authority to appoint the members of the ERB
and its chairperson. In addition, the Executive Director can not serve as a member of the
ERB on matters concerning the selection and promotion of SSP.

Office Directors, Regional Directors and the President of AMAC has authority to select
employees through CU-16 level.

As of 12/31/97, the Director of OHR has the authority to review and certify all personnel
actions, act as appointing authority for all personnel actions not withdrawn by OPM,
authority to establish rating and ranking panels (except for SSPs), and authority to
approve interview panels (except SSPs).

NCUA POLICIES AND PROCEDURES - NCUA Personnel Manual, Chapter 3

It is NCUA policy to make selections from among the best qualified candidates available
and to select from within the agency whenever feasible. The techniques used in evaluating
and selecting candidates will be job related and will be applied without discrimination.

Competitive procedures are required for a transfer to a higher graded position or to a
position at a higher grade than the highest grade previously held on a permanent basis.
The Director of OHR, the Director of EEO or the selecting official may request the use of
competitive procedures when they are not required.

The Executive Director is responsible for coordinating, administering, reviewing and
recommending revisions to the Merit Promotion Program. OHR will the program’s
operation, administer the programs for all announcements not delegated to others, provide
guidance to the regions, audit regional case files, and obtain rating panel nominations from
regions and central offices. The regional directors, office directors and President of the
ALMC will identify recruitment sources, will decide on the area of consideration based
upon the availability of well-qualified candidates, develop evaluation criteria with OHR,
and make regional/office selections. The regional/office directors and President of the


                                          39
ALMC will administer the merit promotion program in their regions (up to CU-16) by
announcing, publishing, establishing evaluation criteria, receiving applications, notifying
applicants, reviewing for eligibility, providing concurrent lists, obtaining supervisory
appraisals, evaluating candidates by either naming a rating panel or technical expert (for
five or fewer candidates), referring candidates, obtaining selecting officials decision,
notifying applicants of selection decision, answer applicant inquiries, maintaining case files
and providing information to OHR to process personnel actions and to EEO for
monitoring and tracking.

Note: As of the end of 1997 the regional promotion delegation was rescinded and
reverted back to OHR for internally advertised promotions and to OPM for externally
advertised promotions.

The merit promotion process begins with the appropriate selecting official submitting an
SF-52, Request for Personnel Action. The area of consideration in which to distribute the
announcement is designated by the selecting official with the concurrence of OHR. For
CU 13 and above vacancies the area of consideration is announced NCUA-wide,
government wide, or all sources. If the area of consideration does not produce a
reasonable number for choice of selection (three), the area of consideration may be
extended.

The vacancy announcement for grades CU 13 and above is to be advertised at the target
grade level with the option of advertising one grade below. In addition, the announcement
is required to be open at least 15 working days. Regions were responsible for drafting the
standard vacancy announcements and evaluation criteria and all others were performed by
the selecting official (usually office directors) with assistance from OHR.

NCUA employees must submit an NCUA Form 1056, NCUA Experience and
Qualifications Statement and their most recent performance appraisal. All applications
must be received or postmarked by the closing date of the announcement. Applicants who
meet the minimum qualifications requirements will be considered basically eligible for the
position. Each candidates supervisor is requested to submit an NCUA Supervisory
Appraisal of Demonstrated Performance.

Evaluations of applicants was performed via a rating and ranking process to determine the
best qualified candidates. These were performed by the regional office, OHR or by a merit
promotion panel. At the grade CU 13 level when there are five or fewer candidates, the
regional office (by naming a technical expert) or OHR would rate and rank the candidates.
For more than five candidates a rating panel consisting of at least three individuals is used.
OHR maintains a list of rating panel members, as nominated annually by the regions and
central offices. The selection of specific panel members per announcement is done by
OHR or the regional directors. These panel members should be experts in or have
significant knowledge of the advertised position, should be at least one grade higher than
the position advertised, and at least two of the members should be from another office or
region other than where the vacancy exists. The current immediate supervisor is


                                            40
prohibited from participating on the panel. The selecting official may meet with the panel
before the rating process begins only for the purpose of providing the raters with
additional information regarding specific needs of the position. All applicants will be rated
against the evaluation criteria. The rating is to be performed independently on rating
sheets by each panel member. The technical advisor (OHR or regional) is to discuss with
the panel the rating process, applications, appraisals, and numerical ratings via a
conference call to arrive at a consensus to determine the best qualified candidates. The
summary of ratings is then typically listed on a rating summary sheet by the technical
advisor and used for ranking purposes. The regional office or OHR will refer all
concurrent candidates to the selecting official via memorandum, without rating and
ranking. Candidates may be referred, on the merit promotion certificate as Best of Highly
Qualified (BHQ), Highly Qualified (HQ) or as Qualified (Q) rankings.

If one candidate is interviewed from one category (i.e. BHQ) then all candidates must be
offered an interview from that category. However, interviews are not required. The
selecting official is not required to make a selection. The selecting official also has the
option to select either a referred promotable candidate or select a concurrent applicant.
The selecting official also has the option to select from other appropriate sources such as
reemployment priority lists, reinstatement, disable, Veterans eligibles or those within reach
on an OPM certificate. Selections are to be made within 30 days from the certificate
issuance and all candidates must be notified.

Merit promotion case files are to be maintained for two years. The technical advisors
were responsible for the maintenance of the case files.

Exceptions to the merit promotion plan/procedures shall be requested in writing to the
director OHR from the selecting official. Approvals or disapprovals will be made part of
the official merit promotion case file.




                                           41
